No.

IN THE SUPREME COURT
OF THE UNITED STATES
MARTIN G, LEWIS,
Petitioner,

v
DEWAYNE HENDRIX,
Respondent.

On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Ninth Circuit

CERTIFICATE OF SERVICE AND MAILING

I, Stephen R. Sady, counsel of record and amember of the Bar of this Court, certif'
that pursuant to Rule 29.3 , service has been made of the within Motion for Leave to Proceed

In Forma Pauperis and Petition for Writ of Certiorari on the counsel for the respondent by
depositing in the United States Post Office, in Portland, Oregon on April 22,2021, fttst
class postage prepaid, an exact and

full copy thereof

Julia Jarrett, Assistant U.S. Attorney
1000 S.W. Third Avenue, Suite 600
Portland, OR97204

1

addressed to:

Amy Potter, Assistant U.S. Attorney
405 E. Eighth Avenue, Suite 2400
Eugene, OR 97401

Kelly A. Zusman, Assistant U.S. Attorney
1000 S.W. Third Avenue, Suite 600

Portland, OR97204

Elizabeth Prelogar
Acting Solicitor General of the lJnited States
Room 5616
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-000 1

Further, the original and ten copies were mailed to the Honorable Scott S. Harris,

Clerk of the United States Supreme Court, by depositing them in a United States Post
Office Box, addressed to 1 First Street, N.E., Washington, D.C., 20543, for filing on this
22nd day of April,2021, with first-class postage prepaid.

Additionally, I electronically filed the foregoing Motion for Leave to Proceed In
Forma Pauperis and Petition for Writ

of Certiorari by the using the

Electronic filing system on April 22,2021.
Dated this 22nd day of Aprll,202I.

Stephen

Sady

Attorney for Petitioner
Subscribed and sworn to before me this 22nd day

of
OOt--uz

@,

Notary Pub
2

of Oregon

Supreme Court's

